                                              OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM




  National Science Foundation, OIG opened this investigation based on a proactive Participant
  Support review. The grantee' initially failed to provide Participant Support Cost documents as
  requested by OIG for the NSF grant.*

  Following repeated requests, the grantee eventually provided an accounting of Participant
  Support Costs for the grant and apologized for administrative oversight caused by personnel
  changes. Our review of supporting documents provided by the grantee found that Participant
  Support Funds had been used appropriately except expenses of $1807.00 for equipment charged
  for a conference. The grantee acknowledged that these expenses should have been charged as
. Other Grant Expenses, not Participant Support, and corrected the accounting for the charges.
  The grantee also counseled personnel on how to properly track and account Participant Support


  The reclassification of $1807 from Participant Support costs to other grant expenses are
  appropriate because these expenses were for legitimate grant.

  Since the grantee properly accounted for all grant expenditures, this matter is closed.
